HHS/OIG-Audit--"Review of Medical Liability Insurance Costs Charged to Federal Research at Colleges and Universities with Medical Schools, (A-04-91-04048)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medical Liability Insurance Costs Charged to Federal Research at Colleges and Universities with Medical
Schools," (A-04-91-04048)
August 24, 1992
Complete
Text of Report is available in PDF format (905 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of medical liability insurance costs at 28 universities. This review
showed that the universities were inconsistent in charging these costs to federally sponsored research. We found that:
2 universities charged medical liability insurance of $51,840 as a direct cost to Federal awards that involved human test
subjects; 13 universities charged no medical liability insurance costs to federally sponsored research, either as a direct
cost or as an indirect cost; and 13 other universities included $9,730,935 of medical liability insurance costs in their
indirect cost proposals submitted for negotiation.